                                                                                          Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transpottation
           Office of Impector General

                                                                                                                              ,
Subject    ACTION: Review of allegations that FRA Deputy                                       Date:   December 10,2004
           Adrninistratar attempted to relax safety enforcement
           against Union Pacific

 From:                                                                                     Reply to
                                                                                             Attn oE
           Intipector General

   To:     The Secretary
           Deputy Secretary

           This responds to a                                                               former Federal Railroad
           Actministvation (FRA
           Allan Rutter and D
          safety dorcerllent
          tl& 'pmmqe ptqnmed from A                                                                     e @endship with
                             union pacific                                                              in particular, that
          they had vacaboned together.

          Union Pacific is the largest railroad in North America, operating over 53,000 miles of
          track in 23 states. As Deputy Administrator, Acting Administrator Monro exercises
          authority over FRA programs and enforcement actions that directly affect Union Pacific.
          Between Fiscal Year fFY)20%rlthxIu 2003, FRA's enforcement inventory included
          approximately $13 million in proposed civil penalties against Union Paci fie. During this
          same period, then-Deputy Administrator Monro took four vacations to Nantucket Island,
          MA, -w
               i

          It is important to note the context in which these charges ar
          receipt of Hotline allegations, we conducted an investigation o




                                U S . Department of Transportation - Office of Inspector General
                                                    FOR OFFlCIA L USE ONLY
                                        (Public Availab~lityto be determined under 5 U S.C. 552)
                                                                                                                - -
                                                      of ~;ans~ortation'sChief of s t a f f , asserting that
                                                              ssure to relax safety enforcement. The
                                                              specific concerns in writing to Deputy
   General Counsel R                                          in a June 30,2004, letter. T h e Secretary
   then asked us to investigate these allegations,




                                                                     1
                                                                           7
                                                                         v-.




 The results of our investigation of this maker are provided below and include a
 recommendation for Departmental coordination of ethics advice to Adrnini~trato~   and
 Deputy Administrators, and a recommendation for FRA to make greater use of safety and
 enforcement data in connection with its safety program.

 W e are in receipt of the Secretary's signed memorandum of November 30, 2&4,
responding to an advance copy of this report, which concurs with our foregoing
recommendations. In particular, the memorandum states that the Department's Office of
General Counsel will implement our first recommendation, and that FRA has begun
designing a program responsive to our second recommendation and anticipates its
implementation within the recommended time frame. We appreciate the Department's
responsiveness in addressing these recommendations.




  ~n~ornplaint,                    questioned: (1) payments to a missing (and presumed deceased) safety inspector,
(2) payments on an           xf     tion Technology (IT) contract, and (3) the efforts of Adminishtor Rutter to raise
the classification level of a Defense Intelligence Agency (DIA) rail security report. We found nothing to suggest that
FRA acted mappropriately in any of these instances. The payments to the missing rail inspector were in accordance
with Federal law, the FRA disputed payments to the IT contractor and acted reasonably in reachmg a settlemmt, and
the DL4 declsion to reclassify the report was not made m response to Administrator Rutter.




                          -
                       U.S. Department o f Transportation       - Office of    hspector General
      Summary of Results




                                                                                                 -
                   --
         We confirmed that Ms. Monro has a long-standing friendship with
         (over 25 years), and that they vacationed together during Ms. Monro's tenue as
         Deputy Administrator; specifically, four trips to Nantucket. However, we fsund no
         evidence of favoritism toward Union Pac3fic by Acting Administrator Monm and
         FRA; 'nor pressure to relax enforcement against any railroad. Nonetheless, these
                                     ce issue that was not properly addressed by Ms. Monro
                                    eaving a backdrop which could cloud analysis of FRA's


        For example, analysis of FRA civil penalties does not suggest that FRA relaxed
        enforcement under Administrator Rutter and Deputy Administrator MONO. Fines
        increased significantly for the four major rail roads, with Union Pacific experiencing
        the greatest increase in settled amounts-91 percent. Union Pacific al& had the
       highest civil penalty settlement rate among the four majors-68 percent. Other rnetrics,
       however, show that systemic safety issues still exist with the four major railroads,
       which raise questions about the adequacy of FRA's regulatory oversight.
       Additionally, we interviewed each of FRA's eight Regional Administrators (who
       reported t                 and several field inspectors. They each told u s that they did
       not share                   erception that Acting Administrator Monro wanted to relax
       enforcement.

       As we found no evidence hta-                    paid any of Acting Administrator
       Monro's expenses on vacation, our investigation disclosed no violation of Federal
       ethics laws or any actual conflict of interest,


       an actual c a i c t of interest but d i d not properly a d G s s the issue of whether then-
       Deputy Administrator Monro's vacations with                                could create an
       appearance that Ms. Monro had less than an appropriate arm's length relationship with
       Union Pacific. Federal ethics rules are designed, in part, to ensure that official acts
       are free from actual or apparent bias4.



4
    See "Standards o f Ethical Conduct for Employees of the Executive Branch," 5 C.F.R. Q 2635

                         U.S. Department of Transportation .- Office of inspector General
              While Federal law does not require Administrators and Deputy Administrators to
             abandon friendships upon taking office, they must maintain an appropriate arm's
             length relationship, both           appearance, with representatives of regulated
             entities. We believe that           did not give proper attention to this issue. We
             note that     did not                 Department's General Counsel and did not
             memorialize.mdiscussion with Deputy Administrator ~ o n r m a n a l ~ s i or-  b,
             advice.

         * Acting Administrator Monro told us ;hat s h e and-ddi                not discuss any
            FRA a tiom regarding Union Pacific during their vacations, and
            C o n f i r m e d this to be the case. Nonetheless, in our view, thekDeputy
           Adxninistrator Monro did not exercise sound judgment in vacationing with

          fi-              FRA makes countless decisions affecting both public safety and the
           ral roads' nancial interests, including levels of inspection, issuance of rules and
           regulations, compliance orders, and enforcement judgments (e-g., which safety




     r     In light of the broad discretion exercised by a Deputy Administrator over railroad
           safety matters, particularly under FRA's partnership approach, it is critical that FRA
           officials maintain, in both fact and appearance, an arm's length distance in dealing           i



          with railroad industry officials. We did not find any actual conflict of interest on the
          part of Acting Administrator Monro. Notwithstanding, we considered all of the
          circumstances in assessing whether this regulator's vacations with a key representative
          of FRA's largest regulated entity could create the appearance of a less than arm's
          length relationship. We concluded that Acting Administrator Monro's actions in
          vacationing with a f                   FRA's largest regulated entity were ill-advised
          and could give rise to such an appearance.

    rn    However, our review of FRA fines does not suggest that FRA has relaxed
          enforcement, overall, nor does it suggest any favoritism toward Union Pacific. FRA
          enforcement data we reviewed for the periods FY 1998-2000 and FY 2001-2003 show
          that the dollar amount of both proposed and final civil penalties against each of the
          four major railroads increased significantly under Administrator Rutter and Deputy


     According to Securities and Exchange Comrnjssion public filings, as of
h    a r e s o f Union Pacific common stock, which, as o f that date. war valued

                                                                                                      -
                         U.S. Department of Transportation         -   Office o f Inspector General
                                              FOR OFFICIAL USE ONLY
                                  (Public Availability to be determined under 5 11 s r   $57)
       Administrator Monro over that of the preceding period. The most significant of these
       increases occurred with Union Pacific, Specifically, its final settlement amounts
       increased from approximately $4.4 million for the period FY 1998-2000 to
       approximately $8.9 million for the period F Y 2001-2003, the largest relative increase
       among the top four railroads. Likewise, the data show that average FRA civil penalty
       settlement amounts increased significantly for this period over that of the preceding
       period, with Union Pacific having the greatest increase-91 percent. We also note that
      for the four major railroads, between the same m o d s , the average fine settlement rate
      (settlement amounts as a percentage of proposed fines) increased horn 59.9 percent to
      64.4 percent. Union Pacific's settIement rate was the highest in both periods,
      increasing from 63.8 percent to 68.3 percent. In addition, when we interviewed
      FRA's Regional Administrators and several field inspectors, they each related that
      Acting Administrator &nro had not acted to relax enforcerpent*

 -    Notwithstanding the above data, other metrics suggest that substantial safety and
      inspection issues exist for the four major freight railroads, including Union Paei fic.
     Union Pacific had the highest average number of train accidents (weightehper
     million train miles) of the four major railroads during both of the above-referenced
     periods. Yet, Union Pacific has been inspected proportionally less, ranking third in
     FR.4 inspections per million train miles between those periods. These data,
     cornpounded by Union Pacific's recent spate of accidents6, raise questions as to the
     adequacy of the extent of FRA inspections and whether FRA's regulatory oversight
     process is sufficient.

     Our audit results since 1998 have repeatedly shown, and the above-referenced safety
     and enforcement data reinforces, that FRA would benefit from an inspection program
     that places substantially greater emphasis on data and metrics to target use of
     inspection resources.    As noted ifi our audit work, FRA needs to establish a data-
     driven approach placing greater reliance on targeting its inspection and enforcement
     activities based m objective analysis of empirical data. We note that in 2002, FRA
     hired two full-time                sts to perform analysis of safety, ihspection, and
                                                   FRA's
                                                   sed that T R A is committed to instituting a natioon?r



  Following multiple Union Pacific accidents and incidents over the past year, some of which involved fatalities,
FRA conducted a series o f on-site inspections to determine the extent of Union Pacific compliance with FRA safety
regulations. Based on the results of thesc inspections, and in order to improve Union Pacific's level of compliance,
on November 12, 2004, FRA and Union Pacific entered into a Safety Compliance Agreement to address the concerns
FRA has raised.

                                                                                                         -   -         -
                       U.S. Department of Transportat~on- Office of Inspector General
       inspection program that is data-driven and is actively working to increase its dataf
       analysis capacity.

      Regarding Union p a c i f i c , advised that the level of inspections seems low
      in light of its accident rate and defect ratio7. d i d not have an explanation as to why
      its inspection rate was at that level, advising that FRA's analysts are presently                     7




      examining the data to identify factors that may account for this (e.g., inherent
      differences between western and eastern railroads), in hrtherance of determining
      whether the current level of FRA inspections is adequate.           I



 We make two recommendations:

     Given the breakdown in the ethics consultation process in this matter, the Department
    should consider a requirement that ethics advice to Administrators and Deputy
    Administrators be coordinated with the Department's General Counsel and
    appropriately memorialized in writing. The General Counsel should also consider
    what steps need to be taken with respect to Acting Administrator Monro's
    participation in decisions affecting Union Pacific.

    As evidenced by the data we reviewed in this case, significant safety problems persist
    despite a significant increase in FRA enforcement. With fewer than 450 inspectors
   responsible for overseeing the nation's vast network of 230,000 miles of rail, it is
   critical that FRA's inspection and enforcement efforts be carehlly targeted to address
   those safety problems that are most likely to result m accidents and injuries. We
   recommend that this be done through systematic use of trend analysis, along with
   other data analysis tools, to examine key indicators of a railkmd's safety condition
   (e.g.,its accident rate, defect ratio, and employee injury statistics).

    Accordingly, we recommend that FRA submit to the Secretary-within 90 days-a
   comprehensive plan for implementing, in no more than 6 months, a fblly functioning
   program that makes meaningful use of analysis of available safety, inspection, and
   enforcement data to (a) focus field inspection activities; (b) assess when a partnership
   approach is no longer effective and more traditional enforcement (i.e., fines) is
   warranted; and (c) determine appropriate numbers and amounts of fines, by factoring-
   in prior safety/enforcement history and trends. F M ' s plan should include specific
   milestones for measuring progress.



                                 -

Defect R a t i o 1s deiined as ~nstancesof non-compliance wlth FRA standards per un~tsinspected


                     U.S. Department of Transportation                   -   Office of inspector General
                                               FOR OFFICLAL USE ONLY
                               (Public A v a i l a b ~ l i t yto be d e t e m i n e d under 5 U.S.C. 552)
 The Secretary's signed memorandum of November 30, 2004, responding to an advance
 copy of this report, relates Departmental concurrence with our foregoing
 recommendations.      Specifically, the Secretary's memorandum states that @e
Department's Office of General Counsel will implement Recommendation 1, and that
FRA has begun designing a program responsive to Reconimesldati~n2 and anticipates its
implementation within the above-recommended time frame. We appreciate the
Department's responsiveness in addxessing these recommendations.

Findings




               IJ.S. Department of Transportation                -   Officc of inspector General
                                       FOR OFFICIAL USE ONLY
                       (Public A v a ~ l a b ~ l i to
                                                   t y be d e l e m i n e d under 5 U.S C 5 5 7 )
                                                                                                      did not




                                                                                           --
                                                      r Monm and                      the
                                                       have been persdnd and professional
                                                       when Ms. Monro became Deputy
      Administrator, they have taken four vacations, along with a small number of fiends
      and family members,to ~antucket'.

                      alleged that this friendship caused Acting Administrator Monro to
                      o relax safety enforcement against Union Pacific. The issues raised by
                                 licated because, i n our view, FRA7s
                                did not sufficiently address the appearance issue.




                                    -
    -recalls                that b e c a w e m w a s aware of Acting Administrator Monro'i
      friendships with people in the railroad industry, includinf mmmadcita
      point to speak with Acting Administrator Monro soon a ter her appointment about
      baying her own way at social events. In addition to the initial d i s c u s s i o n , m
      remembers at least two other conversations where vacations and gifts were discussed_
      ~ o w e v e r , e v e memorializedr             any of these discussions in writing and
      neither l n o r Acting Administrator Monro could recall specific details of their
      conversations.       also did not consult with the Department's Office of General
      Counsel's ethics officials.


8
 Acting Administrator MONO and                            also sometimes attended, both before and during Acting
A d m ~ n i s t n t o rMONO'S tenure, an annua s 1 tnp w ich w a s widcly attended. In our view,
present the same appearance issues as Acting Administrator M o n r o ' s vacations to Nantucket wit
-

                      U.S. Department of Transportation        -   Office of Inspector General
                                           FOR OFFICIAL USE ONLY
                               (Public Availability to be determined under S U.S C: 557)
   As it appears that Acting Administrator Monro follow               advice to pay
   her own way on vacations and at social events, we fou              Federal ethics
   laws or any actual conflict of interest. However, whil             addressed the
   issue of an actual conflict of i n t e r e s t , l d i d not prop  e appempge
  $me stgrounding Acting Administatoi Monro's vacations with a Union ~ a c i f i m
              and the importance of an Administrator br Deputy Actmini&mtor
                an appropriate arm's length relationship with a representative of a
  regulated entity.

  As provided in the Federal ethic6 regulations, an employee who handles any matter
  that might affect a frien                erests should consult with the appmpia@
  ethics official (in this case             The ethics official then determines whether
 a "reasonable person wi                   of  the relevant facts" would be likely to
 question the employee's impartiality and, i f so, what actions (if any) should be taken
 to reduce the risk of an appearance of impropriety.

 When we interviewe                       acknowledged that Acting Administrator
 Monro's fiiendship                        raised the possibility of an appearance
 problem, but felt that                     ed & give up a long-time fiend.




                                                                                    -
 concluded that no reasonable erson would question Acting Administrator
 vacationing wih       i  i    n light of their long-standing Friendship.


  While Federal law does not require Administrators and Deputy Administrators to
  abandon friendships upon taking office, they must maintain an appropriate arm's
  length relationship, both in fact and in appearance, with representatives of regdated
  entities. We do not agree wit
                               f-               analysis. In our view, sharing a house in
 Nantucket with a senior official o the nation's largest railroad, at the same time the
 agency you represent is, among other thingsi proposing and settling millions of dollars
 in fines against that railroad, could give rise to the appearance of a less than m'p

glen th relationship. Then-Deputy Administrator Monro, along with
    .


            should have considered whether taking these vacations was in the best
interesrof the Department and FRA and asked not only "Is it legal", but "How would
 it appear to the public?"

Acting Administrator Monro told us that she and d        i        d not discuss any
FRA actions r e ~ a r d i n Union
                         L,
                            ~                  - their trips to Nantucket. and
                                  Pacific during
               confirmed this to be the case. AS both Acting Administrator Monro
                     us that Union Pacific, i n c l u d i n g frequently
disagreed with FRA enforcement actions, these. vacations clearly presented an
opportunity for discussion that was not available to other railroads or the public.
                                                                                            -
               U.S. Department of Transportation   -   Office of hspector General
  Thus, we and the public must rely solely on their assurances that FRA enforcement
  matters were not discussed.

  Evidence does nat support the allegation of pressure to "relax enfo-rcement"
  against Union Pacific and other railroads, but the backdrop of the appearance
  issue could cloud analysis of FRA's regulatory oversight of Union Pacific

                               alleged Administrator Rutter and Acting Actministrator
                                railroad safety enforcement, specifically, in favor of
 Union Pacific.                ops were also raised in The New York Times article,
 which included discussion of several FRA inspection-related mxrmranda, rqmrts, and
 meetings concerning Union Pacific.

 The documents referenced in The New YorR Times article appear to us to be regular
 reports, memoranda, meetings, and agency interactions with a railroad that occur in
 the normal course of the regulatory process. However, Xke N ~ York
                                                                  Y Times cast these
 documents in                         on the b ackdrop of Acting Administrator Monro's
 vacations with

  For example, a July 2002 memorandum from Administrator Rutter d P
  Administrator Monro, captioned "Safety Improvement Strategies," asked
 to explain w h m d e r i d e d to use a multi-regional enforcement action a   g m
 Pacific rather than apply the Administrator's new "Responsibility-Based
 Enforcement" program. Administrator Rutter to
-decision                  and wanted to be s u e that
 consideration to use of the new policy. We note
 reasoning for the multi-regional inspection, Mr.
 and it went forward. In our view, absent the backdrop, this memorandum would be
 viewed as little more than a communication from the senior leadership of an
 organization seeking to have a new policy implemented, as is their prerogative.

Similarly, an emait    t                o Acting Administrator Monro complaining
about excessive FRA enforcement against Union Pacific would not be seen as an
unusual communication, particularly in light of Administrator Rutter's and Acting
Administrator Monro's "Responsibility-Based Enforcement" policy-a      parhering-
based approach based on the direct involvement of senior management of FRA and
the railroads. Nor would it be unusual to share such a communication with the




              U S. Department of Transportation                  - Office of       Inspector General
                                      FOR OFFICIAL USE ONLY
                                                       t v be deterrn~nedundt-r 5 1 I c r
                      ( P u b l ~ cA v a ~ l a b ~ l l to                                   <:?\
                                                        which in fact occurred. As it is, however,
                                                              that Acting Administrator Monro was
                                                                   Pacific.

        To address whether Administrator Rutter and Acting Administrator Monro exerted
        pressure on a    n       d FRA in an effort to relax enforcement of Union Pacific,
      --we analyzed FRA safety and enforcement data/statistics, interviewed FRA field
       inspectors and Regional Administrators responsible for inspecting Union Pacific,
       examined FRA inspection reports citing Union Pacific for safety infractions, and
       reviewed Administrator Rutter's and .Acting Administrator Monro's "Responsibility-
       Based Enforcement" policy.

      Analysis of Sat& and Enforcement Data

      In short, our analysis of safety and enforcement data points to the cofnpelling need for
      FRA to take a more data-driven approach to enforcement-something               we have
      recommended to FRA since 1998 through our audit work. As presented in the charts
      on the following page, we looked at five key metrics concerning railroad safety
      performance and FRA enforcement effortsg.                                I




      The enforcement data we reviewed for the periods FY 1998-2000 and FY 2001-2003
     show that the dollar amount of both proposed and fmal civil penalties against each of
     the four maj or railroads increased significantly under Administrator Rutter and Deputy
     Administrator Monro over that of the preceding period The most significant of these
     increases occurred with Union Pacific.

     Specifically, as depicted in the charts below, Union Pacific's final settlement amounts
    increased from approximately $4.4 million for the period FY 1998-2000 to
    approximately $8.9 million for the period FY 2001-2003, the largest relative increase
    among the top four railroads. Likewise, the data show that average FRA civil penal&
    settlement amounts (weighted-per million train miles) also increased significantly for
    this period over that of the preceding pehod. Union Pacific experienced the greatest
    relative increase-91 percent. This analysis does not suggest that FRA has relaxed
    enforcement, overall, nor does it suggest any favoritism toward Union Pacific.
                                                                i




 These m e t r i c ~were derived from F&\ databases, which presented the saFety data by calendar year (CY) and the
enforcement data by fiscal year (FY).

                      U.S. Department of Transportation        -    Office of Inspector General
                                            FOR OFFICIAL USE ONLY
                                (Public Ava~labilityto be determined   u n d ~ r5 I I < C- <<-I\
                                                                                                                                             12

Chart 1: FRA Civil Penalties - Proposed and Settled                                  Chart 2: Average FRA Civil Penalty Settlement Amounts
                                                                                               (Weighted–Per Million Train Miles)
  Penalties                                                                           Penalties
$14,000,000                                                                           $18,000          FY 1998 - 2000
                                                               NS                                      FY 2001 - 2003
$12,000,000                                                                           $16,000
                                                               CSX
$10,000,000                                                    BNSF                   $14,000
                                                               UP
                                                                                      $12,000
 $8,000,000
                                                                                      $10,000
 $6,000,000
                                                                                          $8,000
 $4,000,000
                                                                                          $6,000
 $2,000,000
                                                                                          $4,000
         $-                                                                               $2,000
                FY 1998 - 2000   FY 2001 - 2003   FY 1998 - 2000   FY 2001 - 2003
                                                                                            $-
                          Proposed                            Settled                                  NS                CSX    BNSF    UP



          Other metrics, however, suggest that substantial safety and inspection issues exist for
          the four major freight railroads, including Union Pacific. Specifically, Union
          Pacific’s “Average Train Accidents” (weighted–per million train miles) was highest
          during both of the above-referenced periods, and increased 7 percent between those
          periods, compared to a 1 percent increase industry-wide.

                Chart 3: Average Train Accidents                                             Chart 4: Average Defect Ratios (Instances of Non-
               (Weighted–Per Million Train Miles)                                           Compliance with FRA Standards Per Units Inspected)
Rate                                                                                      Defect
5.0                    CY 1998 - 2000                                                     Ratio
                                                                                                      CY 1998 - 2000
                                                                                          0.10
4.5                    CY 2001 - 2003                                                                 CY 2001 - 2003
                                                                                          0.09
4.0
                                                                                          0.08
3.5
                                                                                          0.07
3.0
                                                                                          0.06
2.5
                                                                                          0.05
2.0                                                                                       0.04
1.5                                                                                       0.03
1.0                                                                                       0.02
0.5                                                                                       0.01
0.0                                                                                       0.00
       Industry-wide      NS            CSX            BNSF              UP                          NS                 CSX    BNSF    UP




                                             Chart 5: Average Inspections (Per Million Train Miles)
                                   Avg. # of
                                 Inspections
                                     100                                                           CY 1998 - 2000
                                      90                                                           CY 2001 - 2003
                                      80
                                      70
                                      60
                                      50
                                      40
                                      30
                                      20
                                      10
                                        0
                                            Industry-wide           NS              CSX             BNSF                UP




                                     U.S. Department of Transportation – Office of Inspector General
                                                                   FOR OFFICIAL USE ONLY
                                                   (Public Availability to be determined under 5 U.S.C. 552)
   Another indicator of a railroad's safety condition is its defect ratio (instances of non-
   compliance with FRA standazds per units inspected). Three of the four to^ raiIroads
   experienced defect ratio increases between those periods. Union Pacific's was highest
  and increased the 'most, by 15 percat wet. the preceding peribd. Further, Union
  Pacific has been inspected proportionally Iess; in fact, it ranked third in FRA
  inspections per milljon train miles between the period$ Calmdar Year (CY)1998-
  2000 and  EY   2201-2003. These data, colnpounded by Union Pacific's recent spate of
  accidents, raise questions as t4 the adeqw~yof the extent of FRA inspections and
  whether FRA's reguIata0 svmight process is sufficient,

   Notwithstanding the appearance issue that predicated our investigation, the s a f e 5 data
  reflect that FRA would benefit from an inspection program that makes substantially
  greater use of data and metrics to target use of inspection resources. Such an
  approach would enable RA to articutate its ration& for how .it allocates its
  inspection resources and decides civil pehrtlv amounts. ,We found that FRA's
 inspection program can function in a manner that is (a) discretionary to individual
 inspectors with respect to routine inspections; and (b) reactive in terms of how it
 conducts focused inspections. As we have noted in our audit work since 1998, FRA
 needs to establish a data-driven approach placing greater reliance on targeting its
 inspection and enforcement activities based on objective analysis of empirical data.

Intmiews of FRP Reaional Administrafors arrd Field inspectors & Review of
Ins~ectionR e p o r W e m oranda

We interviewed each of FRA's eight Regional Administrators (who reported to
                                        in FRA's Texas region. They each told us that
                                    perception that Acting Administrator Monro wanted
                                                 indivihds were aware that Acting
Administrator Monro had a friend who was an executive with Union Pacific, but none
of them felt that this friendship resulted in any favoritism toward Union Pacific.

In addition, we examined a series of internal documents provided to us by
              including inspection reports and memoranda specifically referenced in
The New York Times article. These memoranda, which date back to 1999, document
systemic Union Pacific track problems in Chicago, IL;Shreveport, LA; and North
Little Rock, AR.

A May 2002 memorandum concerning FRA inspection of track problems near
Chicago related an inspector's concern that Union Pacific personnel were "either


               U.S. Department of Transportation   - Officeof   Inspector General
                                 FOR OFFICIAL USE ONLY
   ignoring the conditions at this facility or were not conducting thorough inspections."
   We also reviewed two memoranda dated November 2002 and July 2003 detailing
   systemic track and improper train speed increases around North Little Rock and
  Shveport. The July 2003 memorandum states, in part, that "conditions were so
  egregious that wnion Pacific] railroad inspectors were not identifying defects in the
  track and were doing so with their manager's tacit approval," These three memoranda
  were specifically quoted in the November 7, 2004, New York Times article.

 We reviewed each of these memoranda and other FRA documents, and c6nducted
 interviews, to determine I3.A actions in response to the issues identified in the above-
 cited memoranda. In each case, w e found FRA efforts to follc&-up with Union
Pacific. For instance, in the Chicago case, an FRA inspector walked the track with a
Union Pacific manager, who then, according to the FRA reports, ordered material and
equipment to remedy the problems. With respect to the North Little Rock and
Shreveport track and train speed problems, Deputy Administrator Monro told us she
sent a communication to Union Pacific's Vice President for Operations in late 2003
warning that Union Pacific employees would be held individually liable if the
problems were not corrected.

                            of these and other memoranda and reports do not suggest, as
                            that Administrator Ruttcr ot Deputy Administrator Monro
 applied presstire to relax safety enforcement, Union Pacific safety problems persist.
A; discussed above, particularly in FRA's Texas region, whether under the-safety
Assurance and Compliance program or its new Responsibility-Based Enforcement
policy, FRA efforts do not appear to have been effective in addressing long-standing,
systemic problems. In fact, we note that on November 12, 2004, following multiple
Union Pacific accidents over the past year, some involving fatalities, FRA reacted by
conducting a series of inspections, resulting in FR9 and Union Pacific entering into a
Safety Compliance Agreement. This Agreement sets forth several specific steps that
the railroad must take in order to better monitor its employees' compliance with
operating and safety rules and Federal regulations.

Review of "Responsibilitv-BasedEn forcem enl" Policy

Early in their administration, Administrator Rutter and Acting Administrator Monro
instituted the "Responsibility-Based Enforcement" policy as a supplement to the
existing "Safety Assurance and Compliance Program" (SACP). SACP, implemented
dut-ing the prior administration, was built upon a partnership approach to resolving
systemic safety problems, involving the participation of railroad managers and union

                                                                 -
     1
               U.S. Department of Transportation - Office of Inspector General
     officials at the regional level. According t o Acting Administrator Monro, the SACP
    program suffered from the fact that issues were discussed at length but resulted in
    little meaningfbl change. Ms. Monro told u s that in contrast to the SACP program, the
    Responsibility-Based Enforcement policy involves directly addressing safety matters
    through involvement of the highest levels o f FRA and railroad management.

    While we are not in a position at this time to reach conclusions on the efficacy of the
    Responsibility-Based Enforcement policy, we concluded                           as not
    established as a "subterfuge" to relax enforcement, as alleged b

   In a 1998 audit and fol1ow;up review in 2002, we identified weaknesses in the SACP
   program. We recommmded that it be more data-driven and performance-based. As
   we have r i ~ t e din our audit work, partnership a~pmachesto compliance and
   enforcement, such as SACP and the Responsibility-Based Enf'reement policy, need to
   be sensitive to the point in time when partnership has     far enough and traditional
   enforcement is most appropriate.                                 1

Recommendations

1 . Given the breakdown in the ethics consultation process in this matter, the Department
    should ,consider a requirement that ethics advice to Administrators and Deputy
    Administrators be coordinated with the Department's General Counsel and
    appropriately memorialized in writing. The General Counsel should also consider
    what steps need to be taken with respect to Acting Administrator Monro's
    participation in decisions affecting Union Pacific.

  As evidenced by the data we reviewed in this case, significant safety problems persist
  despite a significant increase in FRA enfdrcement. With fewer than 450 inspectors
  responsible for overseeing the natiorl's vast network of 230,000 miles of rail, it is
  critical that FRA's inspection and enforcement efforts be carefully targeted to address
  those safety problems that are most likely to result in accidents and injuries. We
  recommend that this be done through systematic use of trend analysis, along with
  other data analysis tools, to examine key indicators of a railroad's safety condition
  ( e g , its accident rate, defect ratio, and employee injury statistics.)

  Accordingly, we recommend that FRA submit to the Secretary-within 90 days--a
  comprehensive plan for implementing, in n o more than six months, a fully functioning
  program that makes meaningfd use of analysis of available safety, inspection, and


                                                                                          -
                 US. Department of Transportation - Officeof Inspector General
     enforcement data to (a) focus field inspection activities; (b) assess when a partnership
    approach is no longer effective and more traditional enforcement (i.e., fines) is
    warranted; and (c) determine appropriate numbers and amounts of fines, by factoring-
    in prior safety/enforcement history and trends. FRA's plan should include specific
    milestones for measuring progress.

 The Secretary's signed memorandum of November 30, 2004, responding to an advance
copy of this report, relates Departmental concurrace with OW recomendations in this
matter. Specifically, the Searetaq's menormdurn states that the Ikpartment's Office of
Gkneral Counsel will implement Recommendation 1, and that FRA has begun d&igning a
program responsive to Recommendation 2 and anticipates its implementation within the
above-recommendedtime &me.




                U . S . Department of Transportation - Office u f inspector General
                                     FOR OFFICIAL USE ONLY
                         (Public Availability lo b e determined under 5 U.S.C 5571
                                                     -
